No. ______
PHILIP E. BERGER, ET AL.,
Petitioners,
v.
NORTH CAROLINA STATE CONFERENCE OF THE NAACP, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, David H. Thompson a
member of the Supreme Court Bar, certify that the PETITION FOR A WRIT
OF CERTIORARI, in the above entitled case complies with the typeface requirements of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes, and that this brief
complies with the word limitation of Supreme Court Rule 33.1(g)(x) (2019),
containing 8,541 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d).

Date: August 19, 2021

/s/David H. Thompson
David H. Thompson

